APPENDIX 1

United States v. Hayes I Cases I Westlaw

~

https://l .next.westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

811 Fed.Appx. 30
This case was not selected for publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION
m,,.....

•

,.....,...,..,. ,... ...

r

•

.....,...,.~

,,..........,..._.....,.....,.

.....,..,...,.

.....,.._

,-..,,,...,.

,,..........,.

•

,...._.,,,.....,......,.

..,.

•

,,,...,...,...,.

•

.....,...,.~

,,._,...

~..-.....-...,.

,....,...,,.._.....,.....,.._

United States v.
United States Court of Appeals, Second Circuit.

April 27, 2020

811 Fed.Appx. 30

(Approx. 9 pages)

COURT'S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE NOTATION "SUMMARY ORDER"). A
PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.

UNITED STATES of America, Appellee,
v.
Wilbert HAYES, Defendant-Appellant.
18-173-cr

April 27, 2020
Synopsis
Background: Defendant was convicted in the United States District Court for the Western
District of New York, Richard J. Arcara, Senior District Judge, 2016 WL 4435203, of being
a felon in possession of a firearm. Defendant appealed.

Holdings: The Court of Appeals held that:
1 evidence was sufficient to demonstrate that defendant had dominion and control over
apartment where firearm found;
2 jury instruction on possession of firearm adequately apprised jury of offense;
3 potential prejudice resulting from admission of testimony regarding police informants'
controlled purchases of marijuana from defendant did not substantially outweigh probative
value;
4 District Court had jurisdiction to adjudicate criminal charge; and
5 error in failing to instruct jury that statute prohibiting felons from possessing firearms
required government to prove defendant's knowledge of former-felon status, and
stipulation's silence as to defendant's knowledge, was not plain error.
Affirmed.

West Headnotes (5)
Appeal from a judgment of the United States District Court for the Western District of New
York (Arcara, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment of the district court is AFFIRMED .

1 of7

7/25/2020, 10:43 AM

United States v. Hayes I Cases I Westlaw

https://l .next.westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

Attorneys and Law Firms
For Appellee: Monica J. Richards , Assistant United States Attorney, for James P. Kennedy,
Jr., United States Attorney for the Western District of New York, Buffalo, NY
For Defendant-Appellant: James M. Branden, The Law Office of James M. Branden, New
York, NY
Present: Richard C. Wesley Debra Ann Livingston, Joseph F Bianco , Circuit Judges.

SUMMARY ORDER
Defendant-Appellant Wilbert Hayes ("Hayes") appeals from a judgment of conviction and
sentence in the United States District Court for the Western District of New York (Arcara,

J.) for one count of being a felon in possession of a firearm pursuant to i8 U.S C. §
) and § 924(a)(2). Hayes was charged following an investigation by the Niagara
Falls Police Department ("NFPD") into potential marijuana-dealing activities at an
apartment at 1318 Walnut Avenue in Niagara Falls, New York, where Hayes resided with
his girlfriend and two children. Following two controlled purchases of marijuana and a
series of surveillance operations, the NFPD obtained a warrant to search the apartment.
When NFPD officers executed the warrant on August 15, 2014, they discovered, inter alia,
a bolt-action shotgun hidden in a bedroom closet and a bag of marijuana (along with
additional unused plastic bags) hidden in a fish tank. Hayes's conviction concerns his
possession of the shotgun. We assume the parties' familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.

I. The Sufficiency of the Trial Evidence
A conviction under 18 U.S.C. § 922(g)(1) requires the government to prove, inter *33 alia,
that the defendant knowingly possessed or received a firearm. The defendant's mere
presence in the same location as a weapon does not establish possession, United States

v. Rios, 856 F.2d 493, 496 (2d Cir. 1988), but it is sufficient for the government to prove that
a defendant had the "power and [] intention ... to exercise dominion and control" over it,

United States v. Jones, 531 F3d 163, 169 (2d Cir. 2008). On appeal, Hayes argues that
the government presented insufficient evidence at trial to prove that he had possession of
the shotgun found in the bedroom closet. He contends that, "[a]t best, the evidence
suggest[s] that [he] was a regular visitor to the upper apartment at 1318 Walnut [Avenue]
and that he had some authority to receive visitors there and even barbecue on the outdoor
porch," both of which NFPD officers had observed him doing. Appellant's Br. 9-10. For the
following reasons, we disagree.
We review challenges to the sufficiency of the evidence de nova. United States v
F3d 716, 737 (2d Cir. 2019), cerl. denied, -

919

U.S.--, '140 S. Ct 846, 205 LEd.2d 470

(2020). In so doing, we view the evidence "in a light that is most favorable to the
government, and with all reasonable inferences resolved in favor of the government."

United States v Anderson, 747 F.3d 51, 60 (2d Cir. 2014) (quoting United States v.
Persico, 645 F.3d 85, 104 (2d Cir. 2011 )). We must uphold the jury's verdict "if any rational
trier of fact could have found the essential elements of the crime had been proved beyond
a reasonable doubt." United States v. Valle, 807 F.3d 508, 515 (2d Cir. 2015). The verdict
"may be based on circumstantial evidence," and "the Government is not required to
preclude every reasonable hypothesis which is consistent with innocence." Unite(} States v.

Ogando, 547 F.3d 102, 107 (2d Cir. 2008) (internal quotation marks omitted).
Here, the government presented sufficient evidence for the jury to find that Hayes
had dominion and control over the shotgun. First, the jury heard testimony that at each of
the five times police surveilled the premises, Hayes was present and acting in a manner

2 of7

7/25/2020, 10:43 AM

United States v. Hayes I Cases I Westlaw

https://l .next. westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

consistent with the exercise of dominion and control of the apartment, including by allowing
visitors to enter and barbecuing on the apartment's deck. It heard further evidence that
confidential informants purchased marijuana from Hayes at the apartment, a narrative
corroborated by the presence of marijuana and unused plastic bags hidden there. Second,
police testified that when an officer accidentally discharged his weapon while clearing the
apartment, Hayes repeatedly asked, "Who shot a shot in my house?" Trial Tr. 115, 124,
131-32. Third, when Hayes was booked and asked for his address by law enforcement, he
provided the address where police found the shotgun. Fourth, a search of the apartment
revealed a New York State benefits card and a letter concerning child support payments,
both of which were addressed to Hayes.
This evidence was sufficient to find, beyond a reasonable doubt, that Hayes had dominion
and control over the entire apartment and the items inside it. He identified the residence as
his house, both at the time of the search and when he was later asked for his address. He
was seen at the apartment on numerous occasions and kept government documents and
credentials-items one would not ordinarily leave in a place where one does not exercise
dominion and control-on the premises. And the evidence that Hayes dealt marijuana from
the residence suggested a motive for him to keep a weapon near the front door, where the
shotgun was found. See *34 United States v Rivera, 844 F.2d 916, 926 (2d Cir. 1988)
(citing United States v Hernandez, 780 F.2d 113, 116-17 (D.C. Cir. 1986))
II. The Jury Instructions
2

A "criminal defendant is entitled to a jury charge that reflects his defense." United

States v Vasquez, 82 F3d 57 4, 577 (2d Cir. 1996). On appeal, Hayes contends that the

district court's instructions on the law of constructive possession did not sufficiently track
his defense theory-i.e., that his only connection to the shotgun found in the apartment
where he was arrested was physical proximity-and were therefore inconsistent with our
decision in Vasquez . After the close of evidence at trial, Hayes filed a written request for
an instruction that a defendant's "mere presence" at the location where contraband is found
is insufficient evidence of possession. The district court ultimately denied the request,
concluding that the requested instruction risked confusing the jury and that the court's
intended explanation of the law was sufficient. The district court's ultimate instruction
explained, inter a/ia, that possession entails the "power and intention to exercise control
over" the firearm and that the defendant must have "possessed the firearm purposely and
voluntarily and not by accident or mistake." Trial Tr. 385-86. Hayes now argues that by
excluding his requested instruction, the district court "left [the jury] to conclude that the
principal defense was not legally viable and that the defense lacked a supportable
foundation." Appellant's Br. 18. For the following reasons, we again disagree.
We review a Challenge to the jury instructions de nova, but will "reverse only where the
charge, viewed as a whole, demonstrates prejudicial error." United States v. Coppola, 67i
F3d 220, 247 (2d Cir. 2012). This occurs only "if we conclude that a charge either fails to
adequately inform the jury of the law, or misleads the jury as to a correct legal standard."
United States v: Quattrone, 441 F.3d 153, 177 (2d Cir. 2006); accord Turley v: ISG
Lackawanna, Inc., 77 4 F3d 140, 153 (2d Cir. 2014). We will not order a new trial if "the

instructions, r€ad as a whole, presented the issues to the jury in a fair and evenhanded
manner."
774 F3d at 153 (quoting Lore v City of Syracuse. 670 F3d 127, 156 (2d
Cir. 2012)). Though a defendant is entitled to a charge that reflects his defense, moreover,
we will not overturn a conviction for a district court's refusal to give a requested instruction
unless that instruction is "legally correct, represents a theory of defense with basis in the
record that would lead to acquittal, and the theory is not effectively presented elsewhere in
the charge." Vasquez, 82 F3d at 577. A criminal defendant is not entitled to have the
district court read to the jury the exact language proposed. United States
F2d 980, 988 (2d Cir. i 993).

3 of7

11,

Johnson, 994

7/25/2020, 10:43 AM

United States v. Hayes I Cases I Westlaw

https:// l .next. westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

For the reasons articulated in Vasquez , the district court's instruction here "adequately
apprised the jury of the defense" and was not prejudicial error. See 82 F3d at 578. In
Vasquez , as here, the defendant requested that the court tell the jury that the "mere

presence of the defendant in the vicinity of the gun or the gun's accessibility to the
defendant is not enough to prove knowing possession." Id. at 577. Instead, that court gave
a charge on possession materially identical to the one given here, instructing the jury that
possession requires "the power and intention to control the firearm" but not "proof of
ownership." Id. We remarked that although "it would have been preferable" to incorporate a
more specific instruction that mere presence is insufficient to find possession, "the court's
instructions adequately apprised the jury of the defense and [did] not warrant reversal of
Vasquez's conviction." Id. at 578.
*35 Central to Vasquez's holding was that "the instructions ... clearly required the jury to

find that the defendant had the intent to exercise dominion or control over the firearm and
that possession could not be established by accident or mistake[,] ... effectively preclud[ing]
conviction for mere presence or proximity." 1 Id. at 577-78. The same is true here. Even if
the district court might have more closely tailored its instruction to Hayes's defense theory,
the instructions it gave effectively presented the jury with the law and plainly precluded a
finding of possession based on "mere presence." The district court's decision not to present
the precise language Hayes requested was in no way tantamount to a condemnation of
Hayes's theory of innocence. See Johnson, 994 F.2d at 988. Hayes's argument to the

contrary is without merit.
Ill. The Admission of Evidence Regarding Confidential Informants

Before trial, Hayes moved, pursuant to Federal Rule of Evidence 403, to preclude
evidence of his two uncharged marijuana transactions with the confidential informants. The
district court granted Hayes's motion to exclude testimony by NFPD detectives regarding
controlled purchases of marijuana from Hayes, but allowed the government to examine
those detectives regarding their surveillance operations, their observations of Hayes at the
apartment, and the seizure of the marijuana and plastic bags found during the search.
At trial, the government elicited testimony regarding the NFPD's recovery of marijuana,
unused plastic bags, and the shotgun at the apartment. When cross-examining Detective
Joseph Giaquinto, the detective who initiated the investigation into Hayes, defense counsel
elicited testimony that the marijuana found in Hayes's apartment was a small amount and
"could be" intended for personal use. Trial Tr. 220-21. He then elicited testimony that
Hayes, but not his girlfriend who also lived in the apartment, was arrested and charged in

connection with the marijuana and shotgun. At the government's request, the district court
ruled that this testimony-which arguably created the impression that Hayes had been
targeted arbitrarily for investigation and prosecution in connection with personal use
marijuana-opened the door to testimony that the NFPD also oversaw two controlled
evidence purchases of marijuana from Hayes. On redirect, Detective Giaquinto testified
that Hayes let confidential informants into the apartment and that those informants
returned with green matter.that field tested positive for marijuana. He also testified that the
amounts purchased by the informants were consistent with the amount seized in the
search, and that their packaging was consistent with the plastic bags found in the
apartment during the search.
On appeal, Hayes claims that the district court's admission of Detective Giaquinto's
redirect testimony was error. In his summation, counsel for the government referred to the
controlled purchases and linked them to the possession charge by arguing, inter a/ia, that
"he kept [the gun] at 1318 Walnut Avenue, because that's where he sold marijuana. So, he
had the motive to make sure it was nearby, to possess it when he engaged in the
dangerous world of drug dealing." Trial Tr. 300. In Hayes's view, the admission of the
controlled purchase evidence-particularly in *36 combination with the government's

4 of7

7/25/2020, 10:43 AM

United States v. Hayes I Cases I Westlaw

https:/11.next. westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

theory-was unduly prejudicial because it "paint[ed] ... Hayes as a significant drug dealer
in need of an arsenal to protect him." Appellant's Br. 23. Yet again, we disagree.
"We 'uphold Rule 403 rulings unless the district court has abused its discretion.' " United
States v Massino, 546 F3d 123, 132 (2d Cir. 2008) (per curiam) (quoting Sprint/United
Mgmt. Co. v Mencfefsohn, 552 U.S. 379, 384, 128 S.Ct. 1140, 170 LEd.2d 1 (2008)). As
long as "the district court has conscientiously balanced the proffered evidence's probative
value with the risk for prejudice, its conclusion will be disturbed only if it is arbitrary or
irrational." !cf. (internal quotation mark omitted). In ~he course of our review, we generally
"maximize [the evidence's) probative value and minimize its prejudicial effect." Id. (internal
quotation marks and alterations omitted).
3

Here, the district court die! not abuse its discretion in admitting testimony regarding

the informants' controlled purchases from Hayes. It was neither arbitrary nor irrational to
conclude that the potential for prejudice did not substantially outweigh the evidence's
probative value. Detective Giaquinto's testimony that he witnessed the informants enter the
apartment at Hayes's invitation and leave with marijuana was relevant to whether Hayes
was engaged in selling drugs at the premises and whether he knowingly possessed the
firearm located near the apartment's entrance. 2 And as the district court found, this
evidence was made all the more relevant by defense counsel's cross-examination of
Detective Giaquinto. In the absence of the clarifying rebuttal evidence, this crossexamination might have compromised the NFPD's credibility by implying that the
government focused on Hayes's possession of the firearm when the evidence suggested
no particular association between him and other contraband found in the apartment. 3 Cf.
United States v. Bermudez, 529 F 3d 158, 163 (2d Cir. 2008) (finding evidence of drug
dealing in a firearm possession charge admissible under Rule 403, even before the
defense "opened the door," where "it was important for the government to establish ... why
the officers' attention was focused on [the defendant) as opposed to any number of other
individuals in the high crime area").
Moreover, Detective Giaquinto's testimony presented little risk of unfair prejudice. Rather
than portraying Hayes "as a significant drug dealer in need of an arsenal," Appellant's Br.
23, the evidence suggested that he was a small-time marijuana dealer who sold small bags
of marijuana and possessed a single unloaded shotgun in the place where he sold those
drugs. This type of evidence was unlikely to inflame the passions of a jury. Nor was it likely
to prompt a jury to "declar[e] guilt on a ground different from proof specific *37 to the
offense charged." Old Chief v. United States, 519 U.S. 172, 180, 117 S.Ct 644, 136
LEd.2d 574 (1997). The district court instructed the jury regarding its consideration of the
uncharged criminal activity, and we must presume, absent contrary evidence, that the jury
understood and abided by those instructions. United States v Downing, 297 F3d 52, 59
(2d Cir. 2002). As such, the district court's admission of the controlled-purchase evidence
was not an abuse of its discretion.
IV. Hayes's Post-RehaifChallenge to the Indictment and Jury Instructions
After Hayes's conviction, the Supreme Court decided Rehaifv. Unitecl States, -

U.S.

- - , 139 S. Ct 2191, 204 LEd.2d 594 (2019), holding thatto obtain a conviction pursuant
to 18 U.S.C. § 922(g), the government must prove not only that the defendant knew that he
possessed a firearm, but also that he "knew he belonged to the relevant category of
persons barred from possessing a firearm." Rehaif, 139 S. Ct. at 2200. Prior to Rehaif,
however, we interpreted § 922(g)(1) and§ 924(a)(2) not to include the latter requirement.
Cf United States v Gaines, 295 F3d 293, 302 (2d Cir. 2002). Accordingly, though Hayes
stipulated at trial that he had previously been convicted of a crime punishable by
imprisonment for a term exceeding one year, that stipulation addressed neither his
knowledge of the prior conviction nor its potential penalties. Now, in supplemental briefing
filed in response to Rehaif, Hayes argues that (1) the district court lacked jurisdiction over

5 of7

7/25/2020, 10:43 Al\/

United States v. Hayes I Cases I Westlaw

https:/I l .next.westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

his case because the indictment did not properly charge an offense and (2) the jury was
not instructed to find-and the stipulation was not sufficient to establish-that Hayes knew
he was a member of the subject class. Post- Rehaif decisions of this Court foreclose both
of these arguments.
4

Federal courts have jurisdiction to adjudicate a criminal charge as long as "the

indictment alleges an offense under U.S. criminal statutes." United States v. Prado, 933
F.3d 121, 134

Cir. 2019). "[T]he standard for the sufficiency of an indictment is not

demanding," United States v. Balde, 943 F.3d 73, 89 (2d Cir. 2019), and requires little more
than that the indictment "track the language of the statute charged and state the time and
place (in approximate terms) of the alleged crime," United States v. Stringer, 730 F.3d 120,
124

(quoting United States v. Pirro, 212 F.3d 86, 92

Cir.

Cir. 2000)). The

indictment here, which closely tracks· the langµage of§ 922(g)( 1), plainly meets this
standard. See Balde, 943 F.3d at 89 (holding that an indictment tracking the statutory
language of§ 922(g)(5)(A) remains sufficient to confer district court jurisdiction after Rehaif
).

Our recent decision in United States v Mi!fer, 954 F.3d 551, 560 (2d Cir. 2020), renders
Hayes's jury instruction challenge similarly meritless. Because Hayes challenges the
district court's instruction for the first time on appeal, we review that instruction "for plain
error, considering whether (1) there is an error; (2) the error is Clear or obvious, rather than
subject to reasonable dispute; (3) the error affected the appellant's substantial rights; and
(4) the error seriously affects the fairness, integrity or public reputation of judicial
proceedings." Id.

557-58 (internal quotation marks omitted). In Miller, the defendant

argued that the district court committed plain error when, prior to Rehaif, it failed to instruct
the jury that§ 922(g) requires the government to prove his knowledge of his former-felon
status. Id. at 557. We disagreed, and held that such an admitted error did not rise to the
level of *38 reversible plain error because the defendant's presentence investigation report
("PSR") revealed that he was sentenced to, and actually served, more than one year in
prison for a prior felony conviction. Id. at 559-60 (concluding that affirming the conviction
would not "seriously affect the fairness, integrity, or public reputation of judicial
proceedings").
5

As in Miller, Hayes's PSR demonstrates that prior to the conduct at issue in this

case, Hayes had been sentenced to, and served, more than one year's imprisonment for a
felony conviction. Like the court in that case, "we have no doubt that, had the Rehaif issue
been foreseen by the district court, [Hayes] would have stipulated to knowledge of his felon
status to prevent the jury from hearing evidence of his actual sentence." 4 Id. at 560. The
district court's erroneous instruction and the stipulation's silence as to Hayes's knowledge
of his prior conviction provide no basis to vacate Hayes's conviction. We have considered
Hayes's remaining arguments and find them to be without merit. Accordingly, we AFFIRM

the judgment of the district court.

All Citations

Footnotes

We have cited Vasquez for the proposition that a district court's failure to give
a requested charge does not merit reversal "where the omitted jury
instructions, although legally correct and even 'preferable,' were not
necessary." See United States v Pabon-Cruz, 391 F.3d 86, 94 (2d Cir. 2004).

2

6 of7

Hayes does not contest the propriety of the controlled-purchase testimony

7/25/2020, 10:43 Al\!

United States v. Hayes I Cases I Westlaw

https://I .next. westlaw.com/Document/Ie8a9d8408a6011 ea9a06996 ...

under Rule 404(b), which prohibits the use of evidence of uncharged crimes
to prove a person's character. But the evidence's relevance to motive renders
it permissible under that rule as well. See Fed. R. Evid.

3

Hayes contends that his counsel's cross-examination was intended merely to
"blunt the potential prejudice of the marijuana/paraphernalia evidence."
Appellant's Br. 22. But as the government argues, this only demonstrates the
false impression that Detective Giaquinto's redirect testimony sought to
correct. Hayes knew that he had been selling marijuana out of the apartment,
so his attempt to counter the impact of the marijuana evidence was actually
to suggest, contrary to fact, that he had not been engaged in drug sales and
the marijuana was solely for personal use.

4

As we explained in Miller, "at trial, [the defendant] likely would have ... been
successful in excluding[ ] the details pertaining to his prior offense as
unnecessary and prejudicial embellishment on his stipulation. We will not
penalize the government for its failure to introduce evidence that it had but
that, prior to Refmif, it would have been precluded from introducing." 954
F3d at

End of

559~60

(footnote omitted).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Document

Westlaw. © 2020 Thomson Reuters

7 of7

Privacy Statement

Accessibility

Supplier Terms

Contact Us

1-800-REF-ATIY (1-800-733-2889)

improve Westiaw

7/25/2020, 10:43 Arv

